No.
In the
SUPREME COURT 0F THE UNITED STATES
WILLIE LEE LEWIS,
Applicant-Petitioner
-vsUNITED STATES OF AMERICA
Respondent-Defendant
Motion for Leave to Proceed in Forma Pauperis
Petitioner, WILLIE LEE LEWIS, through counsel, requests leave to proceed
in forma pauperis without prepayment of fees and costs.
Counsel was appointed pursuant to the Criminal Justice Act, 18 U.S.C. ยง
3006A, by United States Court of Appeals for the Eleventh Circuit December 26,
2019, to represent Willie Lee Lewis on appeal in United States v. Willie Lee Lewis,
No. 19-15076 (11th Cir. 2020), and any subsequent proceedings.
WHEREFORE, Applicant-Petitioner prays leave to proceed in forma
pauperis.

Page 1 of 2

Respectfully submitted:
March 27, 2021

s/

Daniel F. Daly

DANIEL F. DALY, ESQ.
Supreme Court Bar No. 252413
Fla. Bar No. 660752
Gainesville, Florida 32635-7100
(352) 505-0445
danfrandaly@gmail.com
Counsel for Willie Lee Lewis

Page 2 of 2

